TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Taxpayer Referrals of Suspected
                      Tax Fraud Result in Tax Assessments,
                         but Processing of the Referrals
                               Could Be Improved



                                        February 20, 2013

                              Reference Number: 2013-40-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


TAXPAYER REFERRALS OF                                number of referrals the divisions receive, other
SUSPECTED TAX FRAUD RESULT                           issues affect the screeners’ ability to research
IN TAX ASSESSMENTS, BUT                              and identify referrals worthy of examination.
PROCESSING OF THE REFERRALS                          Neither division has a routine review process to
                                                     evaluate screened referrals not selected for
COULD BE IMPROVED
                                                     examination. Routine checks of screened work
                                                     would identify potential areas for improvement.
Highlights                                           In addition, the SB/SE Division does not have
                                                     specific guidelines for screeners. More detailed
                                                     guidelines would allow SB/SE Division
Final Report issued on February 20, 2013             screeners to be more consistent when
                                                     evaluating referrals.
Highlights of Reference Number: 2013-40-022
to the Internal Revenue Service Commissioner         The SB/SE and W&I Divisions spent
for the Small Business/Self-Employed Division        approximately $211,041 to screen the
and Commissioner for the Wage and Investment         102,465 Forms 3949-A received for Fiscal
Division.                                            Year 2012 and assessed more than $29 million.
                                                     The divisions should reevaluate the
IMPACT ON TAXPAYERS                                  Form 3949-A program’s effectiveness once
When individuals want to report possible             corrective actions are complete and determine
instances of Federal tax fraud by a taxpayer, the    how much of their limited resources they should
IRS instructs them to complete and mail              devote to the program. Increased efficiency
Form 3949-A, Information Referral, or to provide     may make it more cost efficient for the divisions
this information via a letter. During Fiscal         to place a higher priority on these referrals.
Years 2010 through 2012, the Small                   WHAT TIGTA RECOMMENDED
Business/Self-Employed (SB/SE) and Wage
Investment (W&I) Divisions received and              TIGTA recommended that the IRS: 1) ensure
screened 274,976 Forms 3949-A. During that           that it periodically communicates its referral
same time period, examinations initiated from        needs to the Accounts Management function;
Form 3949-A referrals resulted in more than          2) conduct routine reviews of screened referrals;
$66.5 million in tax assessments. However,           3) develop detailed SB/SE Division standard
TIGTA previously reported that the IRS               screening guidelines; 4) implement procedures
misrouted referrals it sent to other functions.      to include information about each misrouted
While corrective actions will reduce the number      referral sent to another function or returned to
of referrals received by the SB/SE and W&I           the Accounts Management function; and
Divisions, both divisions can more efficiently and   5) assess the value of the Form 3949-A program
effectively process Forms 3949-A.                    once the IRS implements the corrective actions
                                                     resulting from the previous TIGTA report.
WHY TIGTA DID THE AUDIT
                                                     IRS management agreed with all of our
This audit was initiated in coordination with a      recommendations and, as appropriate, plans to
previous TIGTA audit based on a TIGTA Office         implement corrective actions.
of Investigations referral that reported thousands
of identity theft cases reported on Form 3949-A
were not being processed.
WHAT TIGTA FOUND
TIGTA determined that both the SB/SE and W&I
Division screeners improperly screened
Forms 3949-A. While improvements to the
processes and better communication with the
Accounts Management function will reduce the
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             February 20, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Taxpayer Referrals of Suspected Tax Fraud
                             Result in Tax Assessments, but Processing of the Referrals Could Be
                             Improved (Audit # 201240037)

 This report presents the results of our review to determine the effectiveness of the actions the
 Internal Revenue Service takes on taxpayer reports of fraud using Form 3949-A, Information
 Referral. This audit was added to our Fiscal Year1 2012 Annual Audit Plan and addresses the
 major management challenges of Fraudulent Claims and Improper Payments, and Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Augusta R. Cook,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
                                       Taxpayer Referrals of Suspected Tax Fraud
                                       Result in Tax Assessments, but Processing
                                          of the Referrals Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Processing of Taxpayer Referrals of Suspected
          Tax Fraud Could Be Improved ..................................................................... Page 5
                    Recommendations 1 through 4:......................................... Page 12

                    Recommendation 5:........................................................ Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Management’s Response to the Draft Report ...................... Page 18
        Taxpayer Referrals of Suspected Tax Fraud
        Result in Tax Assessments, but Processing
           of the Referrals Could Be Improved




              Abbreviations

IRS     Internal Revenue Service
SB/SE   Small Business/Self-Employed
TIGTA   Treasury Inspector General for Tax Administration
W&I     Wage and Investment
                                Taxpayer Referrals of Suspected Tax Fraud
                                Result in Tax Assessments, but Processing
                                   of the Referrals Could Be Improved




                                           Background

When individuals want to report possible instances of Federal tax fraud by a taxpayer, the
Internal Revenue Service (IRS) instructs them to complete and mail Form 3949-A, Information
Referral, or to provide this information via a letter. Figure 1 is an excerpt from the IRS public
Internet website, IRS.gov, which provides guidelines for reporting suspected fraud.
           Figure 1: Guidelines for Reporting Suspected Tax Fraud Activity
How Do You Report Suspected Tax Fraud Activity?
 If you suspect or know of an individual or company that is not complying with the tax laws, you may
 report this activity by completing Form 3949-A. You may fill out Form 3949-A online, print it, and mail
 it to:
 Internal Revenue Service
 Fresno, CA 93888
If you do not wish to use Form 3949-A, you may send a letter to the address above. Please include the
following information, if available:
       Name and address of the person you are reporting.
       The Taxpayer Identification Number (Social Security Number for an individual or Employer
        Identification Number for a business).
       A brief description of the alleged violation, including how you became aware of or obtained the
        information.
       The years involved.
       The estimated dollar amount of any unreported income.
       Your name, address, and daytime telephone number.
 Although you are not required to identify yourself, it is helpful to do so. Your identity can be kept
 confidential.
 Frequently Asked Questions – 1.13 IRS Procedures: Reporting Fraud [link to web page entitled
 IRS Procedures]
How to Report:
       Abusive Tax Promotions and/or Promoters
        Complete the referral form [link to Form 14242, Report Suspected Abusive Tax Promotions or
        Preparers] which documents the information necessary to report an abusive tax avoidance
        scheme. The form can be mailed or faxed to the IRS address and fax number on the form.
       Fraudulent IRS e-Mails and Websites
        Visit this page if you receive an e-mail claiming to be from the IRS. [The IRS does not initiate
        contact with taxpayers by e-mail or any social media tools to request personal or financial
        information. Link to web page on how to Report Phishing.]
Source: IRS.gov web page “How Do You Report Suspected Tax Fraud Activity?”



                                                                                                         Page 1
                                   Taxpayer Referrals of Suspected Tax Fraud
                                   Result in Tax Assessments, but Processing
                                      of the Referrals Could Be Improved



In Fiscal Year 2011,1 the IRS website for reporting fraud was visited 501,218 times, and
116,307 Forms 3949-A were received by the Accounts Management function2 clerical unit in
Fresno, California. Figure 2 shows the volume of Forms 3949-A the IRS received in Fiscal
Years 2010 through 2012.
                                  Figure 2: Forms 3949-A Inventory
                                 for Fiscal Years 2010 Through 20123

                                                        Fiscal Year         Fiscal Year          Fiscal Year
                                                           2010                2011                 2012

     Total Receipts                                        89,944             116,307              122,586

     Receipts Routed for Further Review                    73,168             114,943              110,541

     Receipts Destroyed                                    14,628              12,401               12,045

     Ending Inventory                                       5,614               4,250                  0

    Source: IRS management information reports.

The Accounts Management function does not classify the tax returns or investigate the taxpayers
referred on Forms 3949-A. The function is merely a conduit for the referrals. Its clerks review
the referrals and use routing sheets to help them identify where to send the referrals. The
Accounts Management function retains the referrals not forwarded to a business unit or office for
90 days and then destroys them.
On a daily basis during Fiscal Year 2012, the Accounts Management function forwarded
referrals to 11 different offices. The Small Business/Self-Employed (SB/SE) and the Wage and
Investment (W&I) Divisions received the most referrals.
Figure 3 shows the functions and offices that received most of the Form 3949-A referrals in
Fiscal Year 2012.




1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
2
  The Accounts Management function in the Wage and Investment Division provides assistance to individual
taxpayers with tax and account-related inquiries via telephone, correspondence, and e-mail.
3
  The IRS-reported categories of inventory do not equal total receipts, and the IRS stated that the information for
Fiscal Year 2010 is incomplete.
                                                                                                               Page 2
                                Taxpayer Referrals of Suspected Tax Fraud
                                Result in Tax Assessments, but Processing
                                   of the Referrals Could Be Improved



                      Figure 3: Top Five Functional Destinations for
                     Receipt of Fiscal Year 2012 Form 3949-A Referrals

                                                                    Total            Percent of Total
                           Destination                          Forms 3949-A            Closures*

      SB/SE Division (Brookhaven, New York)                          57,857               47.20%
      W&I Division (Andover, Massachusetts)                          44,608               36.39%
      Retained for Future Destruction                                12,045               9.83%
      Employment Taxes                                               2,742                2.24%
      Return Preparer Program                                        2,266                1.85%

      Total                                                        119,518                97.50%

     Source: Fiscal Year 2012 Informant Referral Destination Report. *Individual percentages may not add
     up to total due to rounding.

Prior Treasury Inspector General for Tax Administration audit report
In September 2012, the Treasury Inspector General for Tax Administration (TIGTA) concluded
an audit opened as a result of a TIGTA Office of Investigations referral that reported thousands
of identity theft cases reported on Form 3949-A were not being processed. TIGTA reported that
the guidelines taxpayers use to report taxpayer fraud referrals are confusing and inconsistent.4
Instructions on Form 3949-A do not explain what types of fraud and tax law violations to report
using this form. As a result, individuals often use Form 3949-A for purposes other than
reporting suspected tax fraud or tax law violations. Additionally, because Form 3949-A lacks
specificity, taxpayers do not always provide the IRS with sufficient information for the IRS to
take action. As a result, many referrals do not meet any criteria under which the IRS would be
able to take action.
Ineffective routing procedures and oversight also allowed Forms 3949-A to be misrouted to the
wrong functions. Others are mistakenly considered unworkable and retained for 90 days and
then destroyed.
TIGTA recommended and the IRS agreed to clarify guidance and instructions and implement
controls for routing documents. The IRS also plans to conduct a feasibility study for developing
an online Form 3949-A that ensures sufficient information is collected and evaluate the clerical
unit routing process to determine if it would be more efficient for technical employees to assume
those responsibilities.



4
 TIGTA, Ref. No. 2012-40-106, The Process for Individuals to Report Suspected Tax Law Violations Is Not
Efficient or Effective p. 3 (Sept. 2012).
                                                                                                          Page 3
                            Taxpayer Referrals of Suspected Tax Fraud
                            Result in Tax Assessments, but Processing
                               of the Referrals Could Be Improved



This review was performed at the SB/SE Division Examination Operations function in
Brookhaven, New York, the W&I Division Customer Account Services Accounts Management
function clerical unit in Fresno, California, and the W&I Division Examination Operations
function in Andover, Massachusetts, during the period May through September 2012. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 4
                                 Taxpayer Referrals of Suspected Tax Fraud
                                 Result in Tax Assessments, but Processing
                                    of the Referrals Could Be Improved




                                     Results of Review

The Processing of Taxpayer Referrals of Suspected Tax Fraud Could
Be Improved
During Fiscal Years 2010 through 2012, the SB/SE and W&I Divisions received and screened
274,976 Form 3949-A referrals. During that same time period, examinations initiated from
Form 3949-A referrals resulted in more than $66.5 million in tax assessments—an average of
approximately $12,672 per referral selected and examined.5
Of the 274,976 Forms 3949-A received by the SB/SE and W&I Divisions during Fiscal
Years 2010 through 2012:
       3,542 (1.3 percent) Forms 3949-A had tax returns waiting to be examined by the
        Divisions.
       5,254 (1.9 percent) Forms 3949-A resulted in 8,153 tax returns being examined.
       266,180 (96.8 percent) Forms 3949-A were not selected for examination because, in most
        cases, the IRS rejected the referrals during the screening or classification processes. The
        IRS rejected the referrals because, for example: 1) Forms 3949-A were misrouted to the
        divisions or offices, or the referrals did not have sufficient information to identify the
        subject of the referral, 2) the issues were not significant or did not meet examination
        criteria, or 3) the statute of limitations had expired or was near expiration.
Figures 4 and 5 show the number of Forms 3949-A received by each division as well as the
number of tax returns examined and the dollars assessed as a result of the Form 3949-A referrals
for Fiscal Years 2010 through 2012.




5
 This average was obtained by dividing the total number of assessment dollars in Figures 4 and 5 ($41,139,993 and
25,439,595, respectively) by the total number of referrals selected and examined (1,266 and 3,988, respectively).
                                                                                                          Page 5
                                Taxpayer Referrals of Suspected Tax Fraud
                                Result in Tax Assessments, but Processing
                                   of the Referrals Could Be Improved



             Figure 4: Forms 3949-A Received, Selected, and Examined
             by the SB/SE Division for Fiscal Years 2010 Through 2012

                     Total                                          Related Tax
         Fiscal     Referrals          Referrals Selected             Returns
          Year      Received            and Examined                 Examined            Totals
                                  Examinations              235               270                 505
          2010       53,462
                                         Dollars    $1,855,784        $2,095,057        $3,950,841
                                  Examinations              266               475                 741
          2011       41,611
                                         Dollars    $3,026,854        $7,278,500      $10,305,354
                                  Examinations              765             1,300             2,065
          2012       57,857
                                         Dollars    $8,495,580       $18,388,218      $26,883,798
                                 Examinations              1,266            2,045             3,311
         Totals      152,930
                                        Dollars    $13,378,218      $27,761,775        $41,139,993
        Source: The IRS’s Audit Information Management System.

             Figure 5: Forms 3949-A Received, Selected, and Examined
               by the W&I Division for Fiscal Years 2010 Through 2012

                           Total
            Fiscal        Referrals        Referrals Selected         Tax Returns Selected
             Year         Received          and Examined                 and Examined*
                                                                    Examinations             1,890
             2010             40,250               1,238
                                                                           Dollars     $6,812,690
                                                                    Examinations             3,633
             2011             37,188               2,370
                                                                           Dollars    $16,039,807
                                                                    Examinations                  585
             2012             44,608               380
                                                                           Dollars     $2,587,098
                                                                   Examinations              6,108
            Totals         122,046                 3,988
                                                                          Dollars     $25,439,595
         Source: The IRS’s Audit Information Management System. * The additional tax returns
         examined as a result of the initial referral could not be separated due to the way the
         W&I Division records examinations on the System.

The SB/SE Division averaged approximately 69.9 staff hours per referral to examine related tax
returns for the referrals selected and assessed more than $41 million. For the 1,266 referrals with




                                                                                                        Page 6
                                   Taxpayer Referrals of Suspected Tax Fraud
                                   Result in Tax Assessments, but Processing
                                      of the Referrals Could Be Improved



examinations closed during Fiscal Years 2010 through 2012, the average yield was $465 per
examiner staff hour.6
The W&I Division averaged approximately 2.54 staff hours per referral to examine related tax
returns for the referrals selected and assessed more than $25.4 million. For the 3,988 referrals
with examinations closed during Fiscal Years 2010 through 2012, the average yield was
$2,507 per examiner staff hour.7

The divisions receive misrouted, incomplete, or unrelated referrals
In September 2012, TIGTA reported that the Accounts Management function misrouted referrals
it sent to other functions.8 From our samples of SB/SE and W&I Division referrals:9
        The SB/SE Division should generally receive referrals dealing with business taxpayers,
         such as self-employed income issues on tax returns. From our sample of 120 referrals
         sent to the SB/SE Division, the Accounts Management function should not have sent
         41 (34 percent) referrals.10
             o 20 (17 percent) of 120 referrals dealt with employment tax issues, return preparer
               issues, or nontax-related issues.11 The Accounts Management function should
               have sent these referrals to other IRS offices, including the Employment Tax
               Office (13 referrals) and the Return Preparer Office (three referrals), or should
               have retained these referrals for destruction (four referrals).




6
  We calculated the average yield of $465 per examiner staff hour by multiplying 69.9 average staff hours per
examination by 1,266 SB/SE Division referrals selected and examined and dividing that subtotal into the
$41,139,993 assessed.
7
  We calculated the average yield of $2,507 per examiner staff hour by multiplying 2.54 average staff hours per
examination by 3,988 W&I Division referrals selected and examined and dividing that subtotal into the $25,439,595
assessed. The average staff hours per examination is rounded to two decimals for consistency in reporting but the
average yield was calculated using the non-rounded value for average staff hours per examination. Therefore, the
$2,507 average yield is slightly different than it would be if it were calculated using the rounded value in the report.
8
  TIGTA, Ref. No. 2012-40-106, The Process for Individuals to Report Suspected Tax Law Violations Is Not
Efficient or Effective (Sept. 2012).
9
  During one day in the Fresno Accounts Management function, auditors selected two random samples of 120 Forms
3949-A referred to the SB/SE Division and 118 Forms 3949-A referred to the W&I Division. We have no reason to
believe there was any bias related to our sampling methodology or that this day was not representative of typical
Form 3949-A processing.
10
   For 120 sampled referrals, at a 95 percent confidence level, the precision for projecting a 34 percent error rate is
8.52 percent.
11
   For 120 sampled referrals, at a 95 percent confidence level, the precision for projecting a 17 percent error rate is
6.70 percent.
                                                                                                               Page 7
                                   Taxpayer Referrals of Suspected Tax Fraud
                                   Result in Tax Assessments, but Processing
                                      of the Referrals Could Be Improved



              o 21 (18 percent) of the 120 referrals did not contain sufficient information to
                identify the taxpayer or the subject of the referral.12
        The W&I Division should generally receive referrals dealing with individual taxpayers,
         such as dependent discrepancies and Earned Income Credit Tax issues. From our sample
         of 118 referrals to the W&I Division, the Accounts Management function misrouted
         46 (39 percent). For example, the division received referrals for business and identity
         theft issues that should have been sent to other IRS offices.13
The SB/SE Division is making a proactive effort to reduce the number of misroutes by
communicating its needs to the Accounts Management function. However, when the
W&I Division’s receiving offices send misroutes back to the Accounts Management function,
they only include limited information and do not provide the Accounts Management function
with detailed information, such as the reason the referral should not have been sent to them.
The divisions should provide detailed feedback to the Accounts Management function when they
return misrouted referrals. Without better communication, the Accounts Management function
cannot take corrective actions. However, the corrective actions to the recommendations from
TIGTA’s September 2012 report should significantly decrease the number of misrouted
Forms 3949-A and the amount of time it takes screeners to identify referrals for additional
review or examination.

The divisions’ screening processes need improved guidance and oversight
Both samples contained referrals with sufficient information that were suitable to be retained for
further consideration. However, screeners in both divisions did not identify referrals that
warranted classification or further action. Additionally, the W&I Division screeners retained
referrals for classification that should not have been retained. Figure 6 shows the results of our
analysis.




12
   For 120 sampled referrals, at a 95 percent confidence level, the precision for projecting an 18 percent error rate is
6.83 percent.
13
   For 118 sampled referrals, at a 95 percent confidence level, the precision for projecting a 39 percent error rate is
8.84 percent.
                                                                                                                 Page 8
                                     Taxpayer Referrals of Suspected Tax Fraud
                                     Result in Tax Assessments, but Processing
                                        of the Referrals Could Be Improved



                   Figure 6: Results of the Analysis of the Referrals Sampled

                                                                            SB/SE Division       W&I Division

          Properly Screened or Identified as a Misrouted Referral              104 (87%)            96 (81%)
          Erroneously Selected for Classification                                 0 (0%)              8 (7%)*
          Erroneously Not Selected for Classification                            16 (13%)*          14 (12%)*

          Sample Size                                                              120                 118

         Source: TIGTA’s analysis of Forms 3949-A. *For the sample sizes in the table, at a 95 percent confidence
         level, the precisions for projecting a 7 percent error rate, 13 percent error rate, and 12 percent error rate are
         4.56 percent, 6.11 percent, and 5.86 percent, respectively.

The following concerns were identified:
      Neither division has a routine review process to evaluate screened referrals not selected
       for examination. In Calendar Year 2010, the SB/SE Division initiated a review to
       identify ways to make its processes more efficient, including reducing the number of
       misroutes and improving its screening process. Management stated they plan to identify
       training needs in Calendar Year 2013 as part of the ongoing program reviews. However,
       including routine reviews of screened work as part of the screening process would
       identify potential areas for improvement, keep management apprised of current training
       needs, and ensure that screeners are not missing referrals with examination potential.
      The SB/SE Division does not have specific guidelines or instructions for screeners to use
       when screening referrals. It is strictly a subjective process. Without the necessary
       guidelines to support their decision, screeners use their personal judgment to not forward
       for classification referrals they believe would ultimately not result in an examination,
       including 16 sampled referrals we determined should have been forwarded for
       classification. More detailed guidelines would allow SB/SE Division screeners to be
       more consistent when evaluating referrals.
The W&I Division did not properly screen all referrals
Screeners improperly handled 22 (19 percent) of 118 referrals.14
          For 14 (12 percent) referrals, screeners improperly determined the Accounts Management
           function misrouted the referrals or improperly determined the referrals should have been
           sent to the Federal Records Center without classification. However, these cases had been
           correctly routed to the W&I Division and should have been forwarded for classification.


14
  For 118 sampled referrals, at a 95 percent confidence level, the precision for projecting a 19 percent error rate is
7.06 percent.
                                                                                                                 Page 9
                                   Taxpayer Referrals of Suspected Tax Fraud
                                   Result in Tax Assessments, but Processing
                                      of the Referrals Could Be Improved



        For eight (7 percent) referrals, screeners improperly retained them for classification even
         though they had been misrouted by the Accounts Management function or did not
         warrant further classification.
Of the remaining 96 (81 percent) referrals, screeners properly retained 57 (48 percent) referrals
for classification and determined that 39 (33 percent) were either misrouted to them or did not
warrant classification.

The W&I Division cannot account for referrals not retained for classification
Of the 118 referrals we selected at the Accounts Management function that were referred to the
W&I Division, auditors were only able to physically locate 65 (55 percent) referrals. For the
remaining 53 (45 percent) referrals, it appears screeners determined the referrals were misrouted
or did not warrant classification for examination.15
When the W&I Division receives misrouted referrals, it returns them to the Accounts
Management function. When screeners determine referrals do not warrant classification and
examination, they send them to the Federal Records Center to be retained for a specified period
and then ultimately destroyed. However, they do not maintain a log of these referrals, record
them on a routing slip, or track them. Therefore, W&I Division management does not have the
ability to determine the status or outcome of these individual referrals once the screeners
determine they should not be retained for classification. Neither can they ensure that they
received and processed specific referrals if any follow-up or further action is needed.
The SB/SE Division records the last four digits of taxpayers’ Social Security Numbers and name
controls on Form 3210, Document Transmittal, when it sends misrouted referrals to other
functions, but it does not do this for referrals returned to the Accounts Management function or
sent to the Federal Records Center. It also maintains a spreadsheet of all referrals it considers for
examination. As a result, of the 120 referrals selected at the Accounts Management function and
referred to the SB/SE Division, auditors were able to physically locate all but eight (7 percent)
referrals at the receiving SB/SE Division office.16
Both W&I and SB/SE Division management stated limited resources prevent them from tracking
referrals sent to the Federal Records Center, especially when they receive unexpected or
significant increases in referrals.




15
   For 118 sampled referrals, at a 95 percent confidence level, the precision for projecting a 45 percent error rate is
9.01 percent.
16
   For 120 sampled referrals, at a 95 percent confidence level, the precision for projecting a 7 percent error rate is
4.48 percent.
                                                                                                               Page 10
                                 Taxpayer Referrals of Suspected Tax Fraud
                                 Result in Tax Assessments, but Processing
                                    of the Referrals Could Be Improved



The divisions should reevaluate the Form 3949-A program’s effectiveness once
corrective actions are complete
The Form 3949-A program is one of many compliance programs within the divisions to promote
taxpayer compliance with the tax laws and identify tax returns for audit. The SB/SE and
W&I Divisions spent approximately $211,041 to screen the 102,465 Forms 3949-A received
from the Accounts Management function for Fiscal Year 2012. However, the two divisions
assessed more than $29.4 million. For every $1 spent to screen referrals, examinations assessed
approximately $140.
        The SB/SE Division spent 6,044 staff hours to screen the 57,857 referrals received in
         Fiscal Year 2012. With costs of $26.91 per staff hour to screen Form 3949-A referrals,
         the division spent approximately $162,70017 and assessed almost $27 million
         (765 taxpayers).
        The W&I Division spent approximately 1,850 staff hours to screen the 44,608 referrals it
         received during Fiscal Year 2012. At a cost of $26.13 per staff hour to screen
         Form 3949-A referrals, the division spent approximately $48,34118 and assessed more
         than $2.6 million (380 taxpayers).
The SB/SE Division does not place a restriction on the number of referrals examined in a fiscal
year. However, it must look at overall resource availability when considering the overall audit
potential of the Form 3949-A referrals. Once the referrals are screened, classified, and selected
for examination, they are available for assignment along with other discretionary returns. The
availability of SB/SE Division resources does not always allow it to examine all referrals before
the statute of limitations expires. When the statute of limitations expires on tax returns related to
referrals, the SB/SE Division closes the referrals/cases as non-examined.
****************************************2(f)********************************
*************************************2(f)************************************
************2(f)***************************. Although the W&I Division continues to
screen and classify Forms 3949-A throughout the year, **************2(f)****************
**********2(f)****************** resulting from Form 3949-A referrals until the next fiscal
year. *********************************2(f)***********************************
****2(f)********. However, increases in these audits could result in reductions to other types
of audits, some of which may be prerefund audits.
Once the Accounts Management function has the opportunity to implement corrective actions
and reduce the overall number of Form 3949-A referrals the divisions receive, the divisions
should reevaluate the effectiveness of the Form 3949-A program and determine where to focus

17
   To compute total costs for screening Forms 3949-A, the SB/SE Division used labor costs to screen cases and the
costs of shipping Forms 3949-A to other functions. 
18
   To compute total costs for screening Forms 3949-A, the W&I Division used labor costs.
                                                                                                         Page 11
                             Taxpayer Referrals of Suspected Tax Fraud
                             Result in Tax Assessments, but Processing
                                of the Referrals Could Be Improved



their limited resources. By reducing the number of Forms 3949-A screeners must review, the
program’s value may increase and make it more cost efficient for the divisions to place a higher
priority on referrals.

Recommendations
Recommendation 1: The Commissioner, W&I Division, should ensure that the W&I
Division periodically communicates more detailed information on misroutes and its needs to the
Accounts Management function. This will ensure that referrals are more likely to be referrals the
division can pursue and work.
       Management’s Response: The IRS agreed with this recommendation. The W&I
       Division Compliance function partnered with the Accounts Management function and the
       SB/SE Division Campus Examination function and developed a revised routing system to
       alleviate misroutes. The SB/SE Division met and will continue to meet with the
       Accounts Management function on a bi-annual basis to communicate misroute
       information and provide feedback as it relates to referrals.
Recommendation 2: The Commissioners, SB/SE and W&I Divisions, should ensure that the
program is routinely and periodically reviewed to ensure the quality of screeners’ work, evaluate
and identify additional training needs, identify procedures that need improvements, and help
ensure that screeners are not mishandling referrals to expedite the screening process. In addition,
when it would be beneficial to the Accounts Management function, the results of these reviews
should be shared with the Accounts Management function to assist it in improving its screening
process.
       Management’s Response: The IRS agreed with this recommendation. The SB/SE
       Division Campus Compliance Service function will continue periodic program reviews,
       and the W&I Division Reporting Compliance function will establish a product review
       and provide feedback to the Accounts Management function as appropriate.
Recommendation 3: The Commissioner, SB/SE Division, should enhance existing screening
guidelines and provide more specificity to assist screeners in identifying and retaining quality
referrals for case building and to provide more consistency to the screening process.
       Management’s Response: The IRS agreed with this recommendation. The SB/SE
       Division Campus Compliance Services function will work with the SB/SE Division
       Examination function to better define case-building criteria.
Recommendation 4: The Commissioners, SB/SE and W&I Divisions, should implement or
enhance procedures to include information about each misrouted referral returned to the
Accounts Management function or sent to any other office on Form 3210. In addition, once the
IRS implements the corrective actions resulting from the previous TIGTA report, W&I and
SB/SE Division management should reassess the feasibility of tracking all referrals sent to the

                                                                                           Page 12
                            Taxpayer Referrals of Suspected Tax Fraud
                            Result in Tax Assessments, but Processing
                               of the Referrals Could Be Improved



Federal Records Center. This would allow managers to ensure that the divisions received and
processed specific referrals and help them determine how screeners handled them.
       Management’s Response: The IRS agreed with this recommendation. However, the
       IRS responded that while it agreed individual feedback on each rejected referral would
       help prevent future inappropriate referrals, doing so on such a large volume of cases,
       prior to implementation of corrective actions agreed to in the prior TIGTA audit report,
       would be premature. The IRS stated that once it implements corrective actions from the
       prior TIGTA audit report, it will reconsider this recommendation.
Recommendation 5: The Commissioner, W&I Division, should assess the value of the
Form 3949-A program once the IRS implements the corrective actions resulting from the prior
TIGTA report, reassess the emphasis placed on the program, and prioritize it as needed.
       Management’s Response: The IRS will assess the value of the
       Form 3949-A Program once the Accounts Management function implements the
       corrective actions resulting from the prior TIGTA audit report.
       Office of Audit Comment: In IRS management’s response memorandum, they
       expressed concerns about the presentation of statistical data for our sampled cases. In
       response, we added the confidence levels and precision rates for the 10 error rates
       presented in this report.
       Management also expressed concerns that our statement, “For every $1 spent to screen
       referrals, examinations assessed approximately $140” did not reflect the total cost of the
       actual examinations. This statement, taken in context, is not meant to reflect the total
       cost to make assessments and states that we are only referring to screening costs. The
       statement shows the screening of Form 3949-A referrals is a small cost when compared
       to the amount of assessments the IRS makes when examining these referrals.




                                                                                          Page 13
                            Taxpayer Referrals of Suspected Tax Fraud
                            Result in Tax Assessments, but Processing
                               of the Referrals Could Be Improved



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine the effectiveness of the actions the IRS takes on taxpayer
reports of fraud using Form 3949-A, Information Referral. To accomplish our objective, we:
I.     Determined if the SB/SE and W&I Divisions adequately control and track taxpayer fraud
       referrals received from the Accounts Management function.
       A. Evaluated the process used to receive and screen Forms 3949-A within the divisions.
       B. Determined how the divisions track the referrals during the workflow.
       C. Determined if the divisions are able to identify and process time-sensitive referrals.
II.    Evaluated referrals from the Accounts Management function and determined if the
       information provided was adequate to process the forms.
       A. Determined what types of Form 3949-A referrals the SB/SE and W&I Divisions are
          able to select and work.
       B. Determined what information the divisions need to accurately screen Form 3949-A.
III.   Evaluated the SB/SE and W&I Divisions’ screening and classification processes to
       determine if the processes are effectively identifying and selecting the best cases to work.
       A. During a visit to the Accounts Management function, used IRS criteria to screen and
          classify a random sample of 118 referrals from a total population of 425 referrals
          scheduled to be sent to the W&I Division and a random sample of 120 referrals from
          a total of 390 referrals scheduled to be sent to the SB/SE Division. We used a 95
          percent confidence level, a 10 percent expected error rate, and a ±5 percent precision
          rate to identify the desired sample sizes. We used random samples to ensure there
          was no bias in our selection process. TIGTA’s contract statistician agreed with the
          sampling plan and methodology.
       B. Interviewed IRS management to determine how they evaluate the Form 3949-A
          program and determine its success.
       C. Used the Audit Information Management System to identify the results of
          Form 3949-A referral cases worked by the SB/SE and W&I Divisions.




                                                                                           Page 14
                             Taxpayer Referrals of Suspected Tax Fraud
                             Result in Tax Assessments, but Processing
                                of the Referrals Could Be Improved



       D. We assessed the reliability of the Audit Information Management System data by
          performing electronic testing of required data elements. This included comparing
          assessment data to IRS records. We determined the data were sufficiently reliable for
          the purposes of this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s internal guidelines used by the
divisions to process Forms 3949-A. We evaluated these controls by interviewing management
and reviewing policies and procedures. We also reviewed two statistical samples of 120 Forms
3949-A sent to the SB/SE Division and 118 Forms 3949-A sent to the W&I Division.




                                                                                           Page 15
                           Taxpayer Referrals of Suspected Tax Fraud
                           Result in Tax Assessments, but Processing
                              of the Referrals Could Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Paula W. Johnson, Acting Director
Wilma Figueroa, Audit Manager
Ken Carlson, Lead Auditor
Lynn Faulkner, Senior Auditor
Jack Forbus, Senior Auditor
Geraldine Vaughn, Senior Auditor
Jerome Antoine, Auditor




                                                                                     Page 16
                          Taxpayer Referrals of Suspected Tax Fraud
                          Result in Tax Assessments, but Processing
                             of the Referrals Could Be Improved



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Commissioner, Small Business/Self-Employed Division SE:S
                 Chief, Program Evaluation and Improvement, Wage and Investment Division
                 SE:W:S:PEI




                                                                                   Page 17
          Taxpayer Referrals of Suspected Tax Fraud
          Result in Tax Assessments, but Processing
             of the Referrals Could Be Improved



                                                 Appendix IV

Management’s Response to the Draft Report




                                                      Page 18
Taxpayer Referrals of Suspected Tax Fraud
Result in Tax Assessments, but Processing
   of the Referrals Could Be Improved




                                            Page 19
Taxpayer Referrals of Suspected Tax Fraud
Result in Tax Assessments, but Processing
   of the Referrals Could Be Improved




                                            Page 20
Taxpayer Referrals of Suspected Tax Fraud
Result in Tax Assessments, but Processing
   of the Referrals Could Be Improved




                                            Page 21
